-8225
No.

1

W5T

In The Supreme Court of The United States
Supreme Court, U.S.
FILED

MAR 2 6 2021

John Anderson,
Petitioner

ncnOF. OF THE CLERK

v.
The University of Iowa, et al,
Respondent

On Petition for Writ of Certiorari to the
U.S. Supreme Court

Petition For Writ of Certiorari

John Anderson
Pro-Se/ En Propria Pauperis
509 Harmon Street
Tama, Iowa. 52339

641.481.1754 voice
Johnanderson512002@Yahoo.com

CATv*'

'

:

to

I

Questions presented for Review
1. Is a Notice of Appeal, although with the trial courts designation, but filed
with the Appellate Court automatic grounds for dismissal?
2. If there are Tolling Statutes regarding a Notice Appeal, and the filer has a
disability, does this alleviate the oversight.
3. Is due process/14th Amendment abused by in this incidence an overreliance
on procedure vs content?
4. If the case is a First Amendment case relegating it to strict scrutiny,
shouldn't this imply at least giving a mentioned of tolling?
5. If COVID is raging at the time that the late-Supreme Court Decision Making
by Harold Specht, NOA is due, doesn't external circumstances with a
shown desire to follow the letter of the law show an averment?
6. The "late" Notice was filed within the 30 day mark but with the wrong
court. Another one was filed with the right court but past the 30 day mark,
Isn't horseshoes better than a packing up and taking the game home a little
too much emphasis on procedure on the Appellate Courts part? With ail
due respect.

20-1342

NO.

IN THE
SUPREME COURT OF THE UNITED STATES

John W. Anderson- PETITIONER
VS.
The University of Iowa. Board of Regents. State of
Iowa Attorney General's Office. Respondents

LIST OF PARTIES
[ ] All parties appear in the caption of the case on the cover page.
[^ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose the subject of the petition is as
follows:

-

I declare under penalty of perjury that the foregoing is true and correct.
Executed on (Aw 3Jo

20

Petitioner (Signature)

Table of Authorities
State
Iowa Court 822.3
Iowa R. App. P. 6.102(l)(a).
Cases:
Diaz v. Kelly, 515 F.3d 149,154 (2nd Cir. 2008)
Mendoza v. Carey, 449 F.3d 1065,1070-71 (9th Cir. 2006).
Jones v. Cochise County, 218 Ariz. 372
Federal
Holland v. Florida, 560 U.S. 631 (2010
Lugo-Resendez v. Lynch, 831 F. 3d 337
Constitutional:
The American with Disabilities Act
14th and 5th Amendment

Citations on Orders
1. Order of Johnson County Dismissal LACV080636
2. Order of Appellate Court of Iowa Dismissal 20-1342
3. 1st Notice of Appeal (filed incorrectly)

Statement of Basis of Jurisdiction

Plaintiff on April 1, 2022 was given a letter by The Supreme Court of the
United States to correct his mistakes within 60 days. Plaintiff with this,
see letter.

An Equitable Tolling Case Regarding a Notice of Appeal
Statement
Appellant John Anderson is asking the U. S. Supreme Court to review the Iowa
Appellant's decision to dismiss his case due to their opinion that a purportedly
late Notice of Appeal to the trial court in Johnson County went past the 30 day
deadline, hence the Appellate felt they did not have standing. However Appellant
did file a Notice, except with the wrong court. Though the caption said "For the
Court of Johnson County" Appellant, possibly due to a disability messed up, by
sending it to the wrong court. Can this screw up be tolled? The Iowa Court rules
say: (4)Tolling offiling deadline by timely service. The time for filing a notice of
appeal is tolled when the notice is served, provided the notice is filed with the
district court clerk within a reasonable time. See Iowa R. Civ. P. 1.442(4).
The actual Iowa Court law says; b. All other cases. A notice of appeal must be
filed within 30 days after the filing of the final order or judgment. However, if a
motion is timely filed under Iowa R. Civ. P. 1.904(2) or Iowa R. Civ. P. 1.1007, the
notice of appeal must be filed within 30 days after the filing of the ruling on such
motion.
Plaintiff was dismissed in the lower court on 10/12/22021, due to a Motion for
Summary Judgement by the Defendants. Plaintiff filed a Notice of Appeal with
l

the Appellant court on 10-19-2020. On the page it clearly states "In The Iowa
District Court for Johnson County". See provided paper. On it, it says;
10-19-2020 Appellant NOTICE OF APPEAL (INFO) Filed bv: ANDERSON. JOHN
So Plaintiff sent the Notice of Appeal, though designated for the Johnson County
Court, to the Iowa Appeals Court. Appellant made a mistake.
On 12-08-2020, the Appellate Court of Iowa told Plaintiff that he did not file a
Notice with the lower court. Appellant thought he did and was confused.
Plaintiff being confused possibly due to a disability and a being an inexperienced
litigator never mentioned that he did file a Notice but in the wrong court! At this
time Covid was raging, there was general confusion as well. Plaintiff in his
response to the Appellants inquiry made several arguments that form should not
precede by content. But Plaintiff also said the tolling provision might excuse this
oversight. Appellant was thoroughly mixed up.
Plaintiff filed a first Amendment case in the Johnson County Court. Equitable
Tolling might have helped alleviate this wrong court deliverance. If Reasonable
Time as invoked by the Appellate court was invoked to say they did not have
standing, then doesn't strict scrutiny at least warrant a mention, especially with a
tolling provision on the books? Appellant gave his disability papers in the
2

Appellate Court in his second Motion to Reconsider. Was due process met when
the Appellate Court is super strict regarding a SNAFU, during a pandemic, and
tolling wasn't even mentioned?
The actual case is very substantive and if left to its own devices might alleviate a
very serious problem with textbooks and their alleged inclusion of subliminal
advertising in their pages. Plaintiff was expelled from college for going to the
Deans office "too many times" when he complained about this. Plaintiff was
expelled for 19 years for this! Hence the First Amendment lawsuit. Plaintiff has
included an excerpt from the book The Age of Manipulation that explains this
practice. A pretty important case to be sidelined for a goof. Plaintiff would like a
second chance and return to the Appellate Court of Iowa for them to consider the
appeal of the Trial Court based on the substantive merits of the case. On the
Appellants last filing in the Appellate Court he included his disability papers as
evidenced by the log:
01-26-2021 Appellant MOTION FOR RECONSIDERATION Motion to Reconsider 2 includes medical record attachment Filed by: ANDERSON, JOHN \
So in the final analysis what good for the goose isn't good for the gander,
Appellant is supposed to be fool proof, and he eventually did file a correct NOA,

3

12/11/20. But when it comes to strict scrutiny, the Appellate Court didn't even
consider that tolling might excuse this oversight. Here is a quote:
-In Legalines: p.72: "Under the codes an essential allegation which is not
specifically or which is referred to only indirectly in another allegation is
considered unpleaded and renders the complaint subject to demur. Under the
more liberal rules, however general averments either by reference to outside
exhibits or internal references, are sufficient if the indirect averment shows tend
to show a desire to plead the elements."
-In Supreme Court Decision Making by Harold Specht, the U.S.'s progress as a
civilization has mirrored the progress of judicial enactments.
Finally, as the law review by Scott Silverman shows, entitled Subliminal
Perception and the First Amendment. Yelling Fire in a Crowded Mind?, Appellants
case might just be a watershed case that "advances" civilization.
Appellant thanks the U.S. Supreme Court for it value decision on this matter.

4

Reasons for Granting the Writ
-Giving a Notice of Appeal filed should be tolled, if not in a strict scrutiny case
considered, under due process especially if the state has tolling provisions in its
Notice of appeal statute.
-Reasonable time should be impacted by the pandemic not least of which a major
storm went through Tama knocking all power out and the Trial Court ignored
Plaintiffs assertion he called the clerk of Court asking for him to be able to write it
out by hand which she explicitly gave permission.
-Due Process dictates form should not be subservient ton procedure, even the US
Supreme Court gave Plaintiff another 60 days due to his goof ups.

Appendix
-An Introduction to Supreme Court Decision Making. Harold J. Spaeth. Chandler
Publishing Company, 1972
-The Bill of Rights, the first 10 Amendments to the Constitution
-The Age of Manipulation: The Con in Confidence, The Sin in Sincere 1993 Edition
by Wilson Bryan Key published by Madison Books (1992) Paperback
-University of Miami Law Review Volume 44 Number 5 Article 6 5-1-1990
Subliminal Perception and the First Amendment: Yelling Fire in a Crowded Mind?
Scot Silverglate

From The Age of Manipulation, Page 51 by Dr. Wilson Bryan Key
"The Paper Is the Massage, Not the Message
In 1983, Osman-Kord, Ltd., a Southern California paper com­
pany, developed a process whereby made-to-order subliminal com­
mands, strategy reinforcement messages, and other persuasive
imagery could be very lightly inked on paper stock. The embeds
are completely unavailable to conscious perception, regardless of
examination techniques applied. Individuals who know the embed­
ded message can sometimes pick out portions through normal
perception. But, without such knowledge, there is no way to detect
the subliminal content. This technique is superior to the simplistic
_SEX_ embeds, much cheaper, and extremely flexible. Many indi­
viduals had learned to detect the _SEX_ embeds. But now the message
remains unavailable to conscious perception, avoiding any threat
to media credibility and integrity.
This subvisual enhancement process was tested by Dr. Sidney
Weinstein’s Neuro-Communication Research Laboratory in Dan­
bury, Connecticut. Using a double-blind and three measure­
ments—brain wave EEG evaluations, test subject ratings, and
actual purchasing behavior—roughly 100 subjects were studied.
Three paper stocks were embedded respectively with the words
_BUY, SEX,_ and _NO_. Ads for candy and books were then printed
on the embedded paper stocks, as well as on control paper without
embedding.
Weinstein's experiment indicated that embedded messages were
"significantly influential" in stimulating purchasing behavior, mod­
ifying brain response measures of interest and arousal, and in
influencing how the subjects rated the products advertised. And
there was no way to prove anything was embedded in the paper.
The _Wall Street Journal_ hired the Georgia State Crime Laboratory
and The Georgia Institute of Technology to test and examine the
subvisually enhanced paper. They found nothing, yet t! he paper
appeared to affect behavior. The Arizona State University Ad­
vanced Optics and Lunar Laboratories also examined the enhanced
paper with computer image-enhancement techniques. They found
nothing. Roughly 15,000 people, in various experiments, failed
consciously to perceive embedded words and pictures in the paper.
Potential users of the paper, however, were wary. They feared
looking foolish if it turned out nothing was embedded in the paper.
Seeing is believing is a deeply integrated cultural myth in Western
civilization.
In 1983, an average class of Tucson eighth graders have taken a self esteem test on
processed paper with subliminal messages on it. Students who have taken the test on

paper printed with the subliminal message of "YOU ARE LOVED" have scored 15%
higher than the students who have taken test on plain paper. The same test given to
underachievers have produced even more remarkable results-the students scored 34.7%
higher ! on processed paper. Dana Osman, president of Osman-Kord, Ltd., the company
who printed the paper, claims that subliminal messages only work to influence minor
decisions, and they are the most powerful when reinforcing an already made decision."
End of Quote

